BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for a Writ of
Certiorari in Tamko Building Products, Inc. v. Daniel
Williams and Barbara Williams, were sent via Next
Day Service to the U.S. Supreme Court, and 1 copy
was sent via Next Day Service and e-mail to the
following parties listed below, this 29th day of
January, 2020:
Jere my K. Ward
Jennifer D. Ary
Franden Farris Quillin Goodnight+ Roberts
2 West Second Street, Suite 900
Tulsa, Oklahoma 74103
(918) 583-7129
jward@tulsalawyer .com
jary@tulsalawyer.com
Counsel for Respondents
Paul D. Clement
Counsel of Record
Erin E. Murphy
Andrew C. Lawrence
Mariel A. Brookins
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
erin.murphy@kirkland.com
andrew.lawrence@kirkland.com
mariel.brookins@kirkland.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 29, 2020.

Julie A. Kershner
Becker Gallagher Legal
lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

